      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                        Washington, D.C. 20201




June 1, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Medicaid Personal Care Services Claims Submitted by Providers in
               North Carolina (A-04-10-04003)


Attached, for your information, is an advance copy of our final report on Medicaid personal care
services claims submitted by providers in North Carolina. We will issue this report to the North
Carolina Department of Health and Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Acting Deputy Inspector General for Audit Services, at
(410) 786-7104 or through email at George.Reeb@oig.hhs.gov or Peter J. Barbera, Regional
Inspector General for Audit Services, Region IV, at (404) 562-7750 or through email at
Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-10-04003.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303




June 3, 2011

Report Number: A-04-10-04003

Mr. Lanier M. Cansler
Secretary
North Carolina Department of Health and Human Services
2001 Mail Service Center
Raleigh, NC 27699-2001

Dear Mr. Cansler:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Personal Care Services Claims
Submitted by Providers in North Carolina. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mark Wimple, Audit Manager, at (919) 790-2765, extension 24, or through email at
Mark.Wimple@oig.hhs.gov. Please refer to report number A-04-10-04003 in all
correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Lanier M. Cansler


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




     REVIEW OF MEDICAID
   PERSONAL CARE SERVICES
    CLAIMS SUBMITTED BY
        PROVIDERS IN
      NORTH CAROLINA




                      Daniel R. Levinson
                       Inspector General

                          June 2011
                        A-04-10-04003
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In North Carolina, the Department of Health and Human Services (the State agency) supervises
the administration of the Medicaid program. Within the State agency, the Division of Medical
Assistance (DMA) administers the Medicaid program. DMA’s Facility and Community Care
Section manages the personal care services program. The beneficiary’s physician authorizes
personal care services, and Medicaid-enrolled home care agencies provide service delivery.
During the period July 1, 2005, through June 30, 2007, the State agency claimed personal care
services expenditures totaling approximately $613 million (approximately $391 million Federal
share).

Pursuant to 42 CFR § 440.167, personal care services are generally furnished to individuals
residing in their homes and not residing in hospitals, nursing facilities, intermediate care
facilities for the mentally retarded, or institutions for mental diseases. Medicaid beneficiaries are
authorized for personal care services by a physician in accordance with a plan of treatment or
with a service plan approved by the individual State. Pursuant to North Carolina’s
administrative code: (1) the beneficiary of the service must have a medical diagnosis that
warrants a physician’s care and must be under the direct and ongoing care of the physician
prescribing the services, (2) the beneficiary’s medical condition must be stable, (3) services must
be medically necessary, and (4) services must be provided by a State licensed home care agency
approved to provide in-home aide services. Examples of personal care services include cleaning,
shopping, grooming, and bathing.

OBJECTIVE

Our objective was to determine whether the State agency ensured that claims for Federal
reimbursement of Medicaid personal care services complied with Federal and State
requirements.

SUMMARY OF FINDINGS

The State agency did not ensure that all claims for Federal reimbursement of Medicaid personal
care services complied with Federal and State requirements. Of the 100 sampled claim line
items (items) in our random sample, 65 complied with Federal and State requirements, but 35 did
not.




                                                  i
Of the 35 items that were not compliant, 8 contained more than 1 deficiency:

   •   For 30 items, services were not in accordance with the plan of care.

   •   For seven items, there were no nursing visits for supervision.

   •   For five items, there was a lack of required documentation.

   •   For two items, there was no physician order.

   •   For one item, the qualifications of the in-home care provider were not verified.

These deficiencies occurred because DMA did not have sufficient resources to adequately
monitor the personal care services program for compliance with certain Federal and State
requirements. The State agency has been working with the North Carolina legislature to develop
new procedures and controls for the personal care services program. The North Carolina Current
Operations and Capital Improvement Appropriations Act of 2009 funded an initiative effective
July 1, 2009, that included mandated requirements for cost containment.

Based on our sample results, we estimated that the State agency improperly claimed $41,734,368
(Federal share) for unallowable personal care services during the period July 1, 2005, through
June 30, 2007.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $41,734,368 to the Federal Government and

   •   continue its efforts to implement additional procedures and controls for monitoring the
       providers of personal care services for compliance with Federal and State requirements.

STATE AGENCY COMMENTS

The State agency concurred with our findings and recommendations. The State agency
summarized the corrective actions that it had taken and the procedures that it is continuing to
implement to better monitor and manage its Medicaid In-Home Personal Care Services Program.

The State agency’s comments are included in their entirety as Appendix D.




                                                ii
                                                     TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
            Medicaid Program ..............................................................................................1
            North Carolina’s Medicaid Program ..................................................................1
            North Carolina’s Personal Care Services Program ............................................1
            Providers of Personal Care Services ..................................................................2
            Federal and State Requirements Related to Personal Care Services .................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
            Objective ............................................................................................................2
            Scope .................................................................................................................3
            Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          SERVICES NOT IN ACCORDANCE WITH PLAN OF CARE ...........................4

          NO NURSING VISITS FOR SUPERVISION ........................................................5

          LACK OF REQUIRED DOCUMENTATION .......................................................5

          NO PHYSICIAN ORDER ......................................................................................6

          QUALIFICATIONS NOT VERIFIED ...................................................................6

          CAUSE OF UNALLOWABLE ITEMS ..................................................................6

          ESTIMATE OF THE UNALLOWABLE AMOUNT.............................................7

          RECOMMENDATIONS .........................................................................................7

          STATE AGENCY COMMENTS ............................................................................7

OTHER MATTER.............................................................................................................7

APPENDIXES

          A: SAMPLING METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES




                                                                     iii
C: RESULTS FOR EACH SAMPLED ITEM

D: STATE AGENCY COMMENTS




                           iv
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

North Carolina’s Medicaid Program

In North Carolina, the Department of Health and Human Services (the State agency) supervises
the administration of the Medicaid program. Within the State agency, the Division of Medical
Assistance (DMA) administers the Medicaid program. DMA uses the Medicaid Management
Information System, a computerized payment and information reporting system, to process and
pay Medicaid claims, including personal care service claims. The Federal Government’s share
of costs is known as the Federal medical assistance percentage (FMAP). From July 1, 2005, to
June 30, 2007, the FMAP in North Carolina ranged from 63.49 percent to 64.52 percent.

North Carolina’s Personal Care Services Program

North Carolina’s personal care services program (the program) is managed by DMA’s Facility
and Community Care Section. Although DMA is responsible for the program, each
beneficiary’s physician authorizes personal care services, and Medicaid-enrolled home care
agencies provide service delivery. Title 10A § 13J.0901(29) of the North Carolina
Administrative Code (NCAC) defines personal care services as including tasks that range from
assistance to an individual with basic personal hygiene, grooming, feeding, and ambulation to
medical monitoring and other health-care-related tasks. Pursuant to Title 10A NCAC §
22O.0120(a), such services must be medically necessary and the beneficiary must be under the
direct and ongoing care of the physician prescribing the services. Further, the beneficiary of
these services must have a medical diagnosis that warrants a physician’s care, and the
beneficiary’s medical condition must be stable.

Under North Carolina’s State plan (Attachment 3.1-A.1, 23.f), a Medicaid beneficiary may
receive up to 3.5 hours of personal care service a day and not exceed 60 hours in a month. Those
Medicaid beneficiaries who have personal care needs that exceed the service limitations may
qualify to receive up to an additional 20 hours of service a month.




                                               1
Providers of Personal Care Services

Title 10A NCAC § 22O.0120(b) requires personal care services to be provided by a
Medicaid-enrolled home care agency that is located within North Carolina and is licensed to
provide in-home aide services (providers). At the time of our audit, 993 providers participated in
the program. The North Carolina Division of Health Services Regulation licensed the providers
for 1 year upon qualification, and the licenses were renewable annually. Providers obtained
clients from a variety of sources, including inquiries by beneficiaries or referrals from
physicians, family, or social service agencies. The State agency’s clinical coverage policy
prohibited direct solicitation by the providers or their representatives.

Federal and State Requirements Related to Personal Care Services

The State agency and the providers must comply with Federal and State requirements in
determining whether beneficiaries are eligible for personal care services. Pursuant to section
1905(a)(24) of the Act and implementing Federal regulations (42 CFR § 440.167), personal care
services must be: (1) authorized for an individual by a physician in a plan of treatment or in
accordance with a service plan approved by the individual State; (2) provided by an individual
who is qualified to provide such services and who is not a member of the individual’s family;
and (3) furnished in a home or, at the State’s option, in another location.

Federal regulations at 2 CFR part 225 (incorporating Office of Management and Budget Circular
A-87) establish principles and standards for determining allowable costs incurred by State and
local governments under Federal awards. Section C.1.c. of Appendix A of 2 CFR part 225
provides that to be allowable, costs must be authorized or not prohibited by State or local laws or
regulations.

Title 10A of NCAC § 22O.0120 establishes coverage requirements for North Carolina’s
program. These requirements include that personal care services must be authorized by a
physician and meet the following criteria: (1) the beneficiary of services must have a medical
diagnosis that warrants a physician’s care and must be under the direct and ongoing care of the
prescribing physician, (2) the beneficiary’s medical condition must be stable, (3) services must
be medically necessary, and (4) services must be provided by a State-licensed home care agency
approved to provide in-home aide services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency ensured that claims for Federal
reimbursement of Medicaid personal care services complied with Federal and State
requirements.




                                                 2
Scope

Our audit period covered July 1, 2005, through June 30, 2007. During this period, the State
agency claimed personal care services expenditures totaling approximately $613 million
(approximately $391 million Federal share). We removed claim line items (items) submitted by
one provider from the population of personal care services and performed a separate review
(A-04-09-04041) of this provider. Our sampling frame consisted of 15,173,381 items, totaling
$606,936,404 ($387,790,313 Federal share), taken from North Carolina’s Medicaid paid claims
submitted by providers.

We did not review the overall internal control structure of the State agency or the providers.
Rather, we limited our internal control review to those controls related to our objective.

From January through October 2010, we conducted fieldwork at the State agency’s offices in
Raleigh, North Carolina; provider and physician offices; and beneficiary residences located
throughout North Carolina.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal and State laws and regulations, as well as State policy;

   •    held discussions with State agency officials to gain an understanding of the program;

   •    created a sampling frame of 15,173,381 items of personal care services greater than
        $10.79 submitted by the remaining providers (Appendix A);

   •    selected a random sample of 100 items, for which we:

           o analyzed Medicare and Medicaid claims data to determine whether the
             beneficiary was residing in a hospital, a nursing facility, an intermediate care
             facility for the mentally retarded, or an institution for mental diseases on the date
             of service;

           o analyzed Medicaid claims data to determine whether duplicate or prohibited
             services were performed on the date of service and whether daily or monthly
             service limits were exceeded;

           o reviewed provider documentation supporting the item;

           o reviewed documentation from the physician ordering the personal care services to
             confirm whether a medical professional had examined the beneficiary before the
             order was signed; and




                                                 3
               o visited the beneficiary, if available, associated with the item to inquire about the
                 personal care services he or she received; 1 and

       •   estimated the unallowable Federal Medicaid reimbursement paid in the population of
           15,173,381 items of personal care services (Appendix B).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

The State agency did not ensure that all claims for Federal reimbursement of Medicaid personal
care services complied with Federal and State requirements. Of the 100 items in our random
sample, 65 complied with Federal and State requirements, but 35 did not. Of the 35 items, 8
contained more than 1 deficiency. The table summarizes the deficiencies noted and the number
of items that contained each type of deficiency. See Appendix C for the results for each item.

                                 Summary of Deficiencies in Sampled Items

                                                                                             Number of
                            Type of Deficiency                                            Unallowable Items 2
    Services not in accordance with plan of care                                                 30
    No nursing visits for supervision                                                                 7
    Lack of required documentation                                                                    5
    No physician order                                                                                2
    Qualifications not verified                                                                       1

These deficiencies occurred because DMA did not have sufficient resources to adequately
monitor the program for compliance with certain Federal and State requirements.

Based on our sample results, we estimated that the State agency improperly claimed $41,734,368
(Federal share) for unallowable personal care services from July 1, 2005, through June 30, 2007.

SERVICES NOT IN ACCORDANCE WITH PLAN OF CARE

Pursuant to section 1905(a)(24)(A) of the Act, implementing Federal regulations (42 CFR
§ 440.167(a)(1)), and 10A NCAC § 13J.1107(a), personal care services must be provided in
accordance with a physician-authorized plan of care.

1
  Because of various reasons (i.e., the beneficiaries could not be located, declined to be interviewed, were too ill to
respond, or were deceased), we were able to visit only 30 of the 100 beneficiaries.
2
    The total exceeds 35 because 8 items contained more than 1 error.


                                                            4
For 30 of the 100 items in our sample, the services provided were not in accordance with the
beneficiary’s authorized plan of care:

    •   For 29 of the 30 items, the providers failed to provide at least 1 of the tasks specified in
        the plan of care; however, the providers did not reduce their claims to reflect the actual
        services provided.

        For 2 of these 29 items, the providers also claimed more units of service than prescribed
        in the plan of care; however, there was no documentation to support the deviations from
        the plan of care.

    •   For the remaining item, the provider was unable to demonstrate that the tasks performed
        were the tasks specified in a plan of care.

NO NURSING VISITS FOR SUPERVISION

Pursuant to 10A NCAC § 13J.1110(d) and (f), an appropriate supervisor 3 must make a
supervisory visit to each beneficiary’s home at least quarterly, with or without the in-home aide
present, and at least annually while the in-home aide is providing care to the beneficiary. The
home care agency must maintain documentation of these visits.

Pursuant to 10A NCAC § 13J.1202, an appropriate professional must visit the beneficiary’s
home at least quarterly and assess the beneficiary’s general condition, progress, and response to
services provided and revise the plan of care if necessary based on the beneficiary’s needs.
Documentation of these visits shall be maintained in the beneficiary’s service record. If the same
professional is assigned responsibility for the quarterly assessment and supervision of the
in-home aide, these functions may be conducted during the same home visit.

For 7 of the 100 items in our sample, the providers failed to provide documentation that
demonstrated annual supervision of the in-home aide; in 1 instance, the provider also did not
demonstrate that quarterly supervision of the in-home aide had been performed.

LACK OF REQUIRED DOCUMENTATION

Pursuant to section 1902(a)(27) of the Act and implementing Federal regulations (42 CFR
§ 433.32), Medicaid providers must maintain documentation that fully discloses the extent of the
services provided to the beneficiary. The beneficiary’s service records must contain a record of
all services provided, including dates and times of the service, with entries dated and signed by
the individual providing the service (10A NCAC § 13J.1402(a)(2)(C)).




3
 North Carolina’s State plan requires that in-home aides work under the supervision of a registered nurse
(Attachment 3.1-A.1, 23.f).


                                                         5
For 5 of the 100 items in our sample, the providers lacked evidence that they had complied
with 1 or more of these requirements. In all 5 items, at least 1 of the following deficiencies
occurred:

   •   The service log for the date of service could not be located.

   •   The service log did not support the number of hours claimed.

   •   The employee time record did not support the number of hours claimed.

NO PHYSICIAN ORDER

Pursuant to section 1905(a)(24)(A) of the Act, implementing Federal regulations (42 CFR
§ 440.167(a)(1)), and 10A NCAC § 22O.0120(a), personal care services must be authorized by a
physician. Orders for personal care services must be signed by a physician, but care may
commence in the interim with a verbal order. The home care agency must obtain the physician’s
signature within 60 days from the date of the verbal order (10A NCAC § 13J.1302(a) and (d)).

For 2 of the 100 items in our sample, the providers did not obtain the proper physician’s
authorization. The providers initiated personal care services before obtaining either a written or
verbal order from the physician.

QUALIFICATIONS NOT VERIFIED

Pursuant to section 1905(a)(24)(B) of the Act and implementing Federal regulations (42 CFR
§ 440.167(a)(2)), personal care services must be provided by an individual who is qualified to
provide such services. In-home care providers who are not subject to occupational licensing
laws may be assigned only care activities or tasks for which they have correctly demonstrated
competency to an appropriate individual. The demonstration of competence must be
documented by the home care agency (10A NCAC § 13J.1110(b)).

For 1 of the 100 items in our sample, the provider did not verify the qualifications of the
individual who provided in-home care. There was no evidence that the in-home aide had
demonstrated competency for all of the services provided.

CAUSE OF UNALLOWABLE ITEMS

These deficiencies occurred because DMA did not have sufficient resources to adequately
monitor the program for compliance with certain Federal and State requirements. In June 2006,
the State agency began limited onsite monitoring visits (15 home care agencies each month) to
review the case records for compliance with Federal and State requirements. The monitoring
visits also included beneficiary interviews and quarterly regional training. However, because of
the substantial growth in North Carolina’s program, the State agency’s limited monitoring efforts
were inadequate.




                                                 6
The State agency has worked with the North Carolina legislature to develop new procedures and
controls for the program. The North Carolina Current Operations and Capital Improvement
Appropriations Act of 2009 (Session Law 2009-451) funded an initiative (effective July 1, 2009)
that included mandated requirements for cost containment. At the outset of this initiative, an
independent contractor reassessed and reauthorized personal care services for approximately
37,600 program participants. The restructured program included involvement by the
beneficiary’s physician, independent assessments, and independent review of the plans of care to
ensure the appropriate utilization of personal care services. The program uses automated tools to
ensure consistency among the assessments, service authorizations, plans of care, provider service
logs, and claims for reimbursement.

ESTIMATE OF THE UNALLOWABLE AMOUNT

Of the 100 personal care services items sampled, 35 items were not in compliance with Federal
and State requirements. Based on our sample results, we estimated that the State agency
improperly claimed $41,734,368 (Federal share) for unallowable personal care services during
the period July 1, 2005, through June 30, 2007. The details of our sample results and estimates
are shown in Appendix B.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $41,734,368 to the Federal Government and

   •   continue with its efforts to implement additional procedures and controls for monitoring
       the providers of personal care services for compliance with Federal and State
       requirements.

STATE AGENCY COMMENTS

The State agency concurred with our findings and recommendations. The State agency
summarized the corrective actions that it had taken and the procedures that it is continuing to
implement to better monitor and manage its Medicaid In-Home Personal Care Services Program.

The State agency’s comments are included in their entirety as Appendix D.

                                      OTHER MATTER

We interviewed 30 of the 100 beneficiaries in our sample to determine whether quality-of-care or
service-related issues existed. We did not interview the remaining 70 sampled beneficiaries
because they could not be located, declined to be interviewed, were too ill to respond, or were
deceased. Of the 30 beneficiaries interviewed, 29 rated the quality of daily care as good or very
good and 1 rated it as average.




                                                7
Of the 30 beneficiaries interviewed, 4 stated that they had experienced issues with the
performance or professionalism of in-home aides at some point while receiving care from the
providers; however, the providers resolved these issues to the satisfaction of the beneficiaries.




                                                 8
APPENDIXES
                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicaid paid claims for personal care services rendered by the
providers in North Carolina during the period July 1, 2005, through June 30, 2007, that the North
Carolina Department of Health and Human Services claimed for Federal Medicaid
reimbursement.

SAMPLING FRAME

The sampling frame consisted of 15,173,381 claim line items totaling $606,936,404
($387,790,313 Federal share) for personal care services rendered by providers during our audit
period.

SAMPLING UNIT

The sampling unit was a personal care service claim line item.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 claim line items.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OIG/OAS), statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sampling frame. After generating 100 random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of unallowable payments.
               APPENDIX B: SAMPLE RESULTS AND ESTIMATES


SAMPLE RESULTS

                                           Value of
                                            Sample       Number of           Value of
   Frame      Value of Frame    Sample     (Federal      Unallowable        Unallowable
    Size      (Federal Share)    Size       Share)         Items              Items
 15,173,381    $387,790,313       100       $2,589           35                $417


ESTIMATES

                 Estimated Value of Unallowable Items (Federal Share)
                 (Limits Calculated for a 90-Percent Confidence Interval)

                      Point Estimate                   $63,262,897
                      Lower Limit                      $41,734,368
                      Upper Limit                      $84,791,426
                                                               Page 1 of 3

    APPENDIX C: RESULTS FOR EACH SAMPLED ITEM

                            Legend
A    Services Not in Accordance With Plan of Care
B    No Nursing Visits for Supervision
C    Lack of Required Documentation
D    No Physician Order
E    Qualifications Not Verified


    OIG Review Determinations for the 100 Sampled Items
 Item                                              Number of
Number      A       B       C        D       E       Errors
   1                                                   0
   2                                                   0
   3                                                   0
   4                                                   0
   5                                                   0
   6                                                   0
   7        X                                X         2
   8                                                   0
   9                                                   0
  10                        X        X                 2
  11                                                   0
  12                                                   0
  13                                                   0
  14                                                   0
  15                                                   0
  16                                                   0
  17                                                   0
  18                                                   0
  19        X       X       X                          3
  20                                                   0
  21        X                                          1
  22        X                                          1
  23        X                                          1
  24                                                   0
  25                                                   0
  26                                                   0
  27        X                                          1
  28                                                   0
  29                                                   0
  30                                                   0
                                         Page 2 of 3

 Item                        Number of
Number   A   B   C   D   E    Errors
  31                            0
  32     X                      1
  33                            0
  34     X                      1
  35     X                      1
  36     X                      1
  37     X                      1
  38                            0
  39                            0
  40     X                      1
  41                            0
  42             X              1
  43     X                      1
  44                            0
  45                            0
  46     X                      1
  47                            0
  48     X                      1
  49                            0
  50                            0
  51     X                      1
  52                            0
  53                            0
  54                            0
  55     X                      1
  56                            0
  57                            0
  58                            0
  59                            0
  60     X   X                  2
  61                            0
  62                            0
  63                            0
  64     X                      1
  65                 X          1
  66                            0
  67     X                      1
  68                            0
  69                            0
  70                            0
  71                            0
  72                            0
                                                     Page 3 of 3

  Item                                   Number of
 Number      A       B      C    D   E    Errors
    73                                      0
    74                                      0
    75                                      0
    76       X                              1
    77       X       X                      2
    78                                      0
    79                                      0
    80       X              X               2
    81                                      0
    82                                      0
    83                                      0
    84                                      0
    85                                      0
    86       X                              1
    87       X                              1
    88                                      0
    89                                      0
    90               X                      1
    91       X                              1
    92       X       X      X               3
    93                                      0
    94               X                      1
    95       X       X                      2
    96       X                              1
    97                                      0
    98       X                              1
    99                                      0
   100                                      0
              30      7      5   2   1
Total With Errors                           35
Total With More Than One Error               8
                                                                                                            Page 1 of3


               APPENDIX D: STATE AGENCY COMMENTS 





                    North Carolina Department of Healtb and Huma n Services
                     2001 Mail Service Center· Raleigh. North Carolina 27699-2001
                                Tel: 919-733-4534 • Fax: 919-115-4645
                                                                                      Lanier M. Cans!.r, Secretary



                                             March 28. 2011

Peter J. Barbera
Regional Inspector Genernl for Audit Services
United States Department of Health and Human Services
Office of Inspector General
Office of Audit Services. Region TV
61 Forsyth Street, SW
Suite 3141
Atlanta, GA 30303

RE:    ReportNwnber: A-04- IO-04003
       Draft Review ofMedicaid Personal Care Services Claims Submitted by Providers in North
       Carolina

Dear Mr. Barbera:

This letter acknowledges receipt of the above-referenced draft report. I understand that this report,
along with Report Number: A-04-09-04041 Review ofFederal Reimbursement Claimed by NQrth
Carolina/or Medicaid Personal Care Services Claims Submitted by Shipman Family Home Care, Inc.
dated October 1,2010 completes the Office oflnspector General's review of North Carolina
Medicaid's In·Home Personal Care Services Program for the period July I, 200S through JWlC 30,
2007.

Validity of Facts

Representatives ofthc Office of the Internal Auditor of the North Carolina Department of Health and
Human Services met with Lorraine Forrest and Jaffer Ballard ofOIO's Raleigh office on February 24,
201 1. These internal state auditors rev iewed the audit methodology, sampling procedures, and the
audit findings and concluded that the audit findings were both valid and reasonable. The State
therefore accepts the findings offact described in pages 4 through 7 of the draft report.

Recommendations

The DIG auditors recommend that the State: (I) refund $41,734,368 to the Federal Govenunent and
(2) continue with its efforts to implement additional procedures for monitoring the providers of
personal care services for compliance with federal and state requirements. The State concurs with
each of these recommendations.
            Location: 101 Blair Drive· Adams Building · Dorothea Dix Campus· Raleigh, N.C. 27603 

                               An Equal Opportunity I Affirmative Action Employer 

                                                                                                          Page 2 of3




Peter Barbera
March 28, 2011
Page 2 oD


As indicated in the following corrective actions taken, the State has been focused on improving
personal care services compliance even before the audit was initiated. While the State is unable to
extrapolate the results of this 0 10 audit and recoup on the basis of this audit from individual providers,
individual provider audits bave resulted in disallowances by the State and recoupments will help offset
the $41 ,734,368 recommended recoupment. Future personal care sclVices audit recoupmeots for the
same time period will also belp offset the State repayment.

Corrective Actions

The State bas initiated and is continuing to implement procedures to better monitor and manage its
Medicaid In·Home Person.a! Care Services Program. Beginning in April 0[2007, the State initiated a
wide variety of pes reviews to evaluate pes and introduced a nwnber ofprogram changes designed to
reduce medically unnecessary, inappropriate, and excessive utilization of personal care services.
These actions include:

       • Conducting, between April 2007 and March 2009, reviews of347 home care agencies and
         4,273 recipients receiving pes from these agencies. This rcview documented substantial
         non-compliance with program req uirements and excessive amounts of services delivered to
         individuals witb low levels of functional disability.
       • Implementing an independent assessment program that provides assessment of the need for
         pes by an entity that does 110t provide borne care or borne health services.
       • Automating key aspects of the pes administration process including pbysician referrals,
         assessments, recipicnt notifications, recipient choice of providers. and recipient tracking
         tools. In the near future. the recipient's plan of care w ill be automated and submitted by each
         pes provider to the Independent Assessment Entity for review and approval.
       • Establishing an electronic interface with the state's Medicaid Management Information
         System (MMlS) to ensure claims are paid in accordance w ith the service authorization.
       • Submitting a State Plan Amendment (SPA) to terminate the existing In-Home Personal Care
         Services Program and establishing separate In-Home programs for children and adults that
         contain additional mecbanisms for the State to monilor. evaluate, and manage program cost,
         quality, utilization, and compliance.

The Governor has initiated a series of aggressive measures to curb Medicaid fraud, waste, and abuse.
The measures include stronger investigation and prosecution of potential abusers, increasing the
number of on-site investigations, and utilization oflechnology to detect and prevent abuse. Examples
of these measures implemented to date include:

       • 	 Increasing Program Integrity reviews by authorizing three additional review teams to conduct
           PCS post payment provider audits.
           Implementing a pre-payment audit to include PCS providers who have previously
           demonstrated bigh levels of program non-(:ornpliance.
       • 	 Implementing analytical software that reviews claims for irregular or aberrant billing patterns
           that, in tum, triggers referrnl to Program Integrity Recovery Audit Contractor for review.

         location: 101 Blair Drive . Adams Building. Dorothea Oix Hospital Campus . Raleigh, N.C. 27603
                                An Equal Opportunity I Affirmative Action Employer
                                                                                                            Page 3 of3




 Peter Barbera
 March 28, 201 1
 Page 3 of3


         • Utilizing the Fraud and Abuse Management System (F AMS) sofiware that summarizes
           claims data to identifY pes providers that fall outside ofnorrns for indicators such as total
           dollars paid per recipient, hours of service provided, and service duration.
         • Contracting with a vendor to conduct on-site and desktop reviews that monitor pes
           programs for compliance with federal and state statutes, rules, regulations, clinical coverage
           policics. and administrative requirements.
         • Suspending payments to providers that have outstanding recoupment balances owed to the
              state and, when necessary, tennination of provider agreements with Medicaid.

 Successful efforts to identify and tenninate Medicaid recipients who do not qual ify for pes is
 evidenced by the fact that program enrollment decreased from 37,226 in January or20 10 to 28,436 in
 January of2011 . Concurrently, the program continued to provide appropriate levels of services to
 individuals who demonstrated legitimate needs for personal assistance.

 The North Carolina Department of Health and Human Services is committed to improving the state's
 Medicaid program and continues to take steps to make Medicaid more efficient and effective in
 meeting the needs of qualified individuals within the state. Be assured, we will address the issues
 contained in these two reports and continue to move forward with changes to identify Wld correct
 problems in this program.

 Lastly, we would like to express OUI appreciation for the manner in which the HHS oro auditors
 conducted this audit. They were very professional in all our interactions and cooperative in answering
 our questions. Their findings were wetl-docwnented as evidenced by OUI internal review.

 Sincerely,



ct~,~·~L
 cc: 	   Dr. CraigWl Gray, State Medicaid Director 

         Michael Watson, Deputy Secretary for Health Services 

         Dan Stewart, Assistant Secretary for Finance and Business Operations 

         Eddie Berryman, Director of the DHHS Office of the Internal Auditor 





         Location: 101 Blair Drive . Adams Building. Dorothea Dix Hospital Campus · Raleigh, N.C. 27603 

                                 An Equal Opportunity I AfflIlllative Action Employer 

